Semiannual
Report to Congress




                     April 2013
Cover photo of Shasta Dam, a component of the Central Valley Repayment Project,
which spans the Sacramento River in Northern California.



This report is printed on recycled paper with soy-based inks.
                                                                                            April 2013
                                                                                      October 1, 2012 - March 31, 2013




Contents
About DOI and OIG................................................................................................ii

Message From the
Deputy Inspector General.....................................................................................iii

OIG Operating Principles.......................................................................................v

Summaries of Significant Reports and Investigations........................................2

Appendices................................................................................................................22



         Editors                    Contributors                        Images                      Production

                                      Donald Cairns
   Kimberly Balderson                  Joann Gauzza                       DOI
     Robert Gettlin                   Joel Guenther                   Shutterstock                Kimberly Balderson
                                       Mary Maruca
                                        Mary Strand
About DOI and OIG
        The U.S. Department of the Interior (DOI) is a large, decentralized agency with
employees and volunteers serving in approximately 2,400 operating locations across the United
States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500
million acres of America’s public land, or about one-fifth of the land in the United States,
and 56 million acres of Indian Trust lands. DOI is also responsible for a variety of water and
underwater resources, including hundreds of dams and reservoirs and thousands of oil and
gas leases on millions of acres of the outer continental shelf. Approximately 30 percent of the
Nation’s energy production comes from projects on DOI-managed lands and offshore areas. DOI
scientists conduct a wide range of research on biology, geology, and water to provide land and
resource managers with critical information for sound decisionmaking. DOI lands also provide
outstanding recreational and cultural opportunities to numerous visitors worldwide.

        The Office of Inspector General (OIG) promotes excellence, integrity, and
accountability in these DOI programs. With fewer than 260 full-time employees, the organization
is driven by a keen sense of mission and is dedicated to providing products and services that
impact DOI mission results.




ii Back to Top
Message From the
Deputy Inspector General




        The U.S. Department of the Interior is a huge cabinet agency with a venerable 164-year
history. Employing about 70,000 professionals across 9 distinct bureaus and many other offices,
DOI’s diverse responsibilities range from managing and preserving our national parks and fish
and wildlife to overseeing oil, gas, and renewable energy production on Federal lands and waters
to partnering through Government-to-Government relationships with American Indian and
Native tribes to serving as stewards of land and water resources to promoting science research
and activities across the country.

        In a department this large and with complex legal, regulatory, and policy mandates, how
do we, the Office of Inspector General, fulfill our mission to provide independent oversight
and promote excellence, integrity, and accountability within the programs, operations, and
management of DOI? We do so through a strategic and systematic approach that targets
DOI’s most important activities for oversight by our own workforce of auditors, evaluators,
investigators, and other professionals. In a time of Governmentwide budget cuts and tight
resources, we focus our audit, inspection, evaluation, and investigative planning using a variety
of factors, including working with the Department on identifying its top management challenges,
as well as employing our OIG strategy mechanisms and continuously communicating with our
stakeholders in Congress and elsewhere.

        In addition to the mandated and requested projects worked by our Office of Audits,
Inspections, and Evaluations, the office focuses on discretionary projects related to DOI business
processes and operations; climate change; Indian and Insular affairs; health, safety, security,
and maintenance; water; asset protection and preservation; and energy. To safeguard Federal
funds and uphold the integrity of departmental officials, our Office of Investigations focuses
its investigative priorities on contract and grant fraud, energy, scientific misconduct, ethical
violations, and public safety.

        In this semiannual report covering the 6-month period from October 1, 2012, to March
31, 2013, we highlight how these targeted categories drive the decisionmaking behind the audit
and investigative priorities we pursue. Of the 32 audit, inspection, and evaluation products issued
in the past 6 months, 12—or almost 40 percent—fit into our targeted categories.
                                                                                                 iii
         Our Office of Investigations, both in the past and present, has focused approximately 83
percent of its investigative cases on one of our five investigative priorities, leaving flexibility to
open other cases that may be important or significant for reasons that fall outside the identified
priorities.

        We recognize the importance of providing objective and actionable reports to our
customers and stakeholders. By targeting these specific areas, we marshal our resources so that
we address the most significant issues within the Department and fulfill our responsibilities to the
public to prevent fraud, waste, and mismanagement in Government programs and operations.




                                                    Deputy Inspector General




iv Back to Top
OIG Operating Principles

Mission
OIG’s mission is to provide independent oversight and promote excellence, integrity, and
accountability within the programs, operations, and management of the U.S. Department of the
Interior.

Values
OIG operates as an independent oversight organization responsible to the American people,
DOI, and Congress. We abide by the highest ethical standards and have the courage to tell our
customers and stakeholders what they need to know, not what they wish to hear. Our core values
help us fulfill our mission and include—

 •     placing highest value on objectivity and independence to ensure integrity in our
       workforce and products;
 •     striving for continuous improvement; and
 •     believing in the limitless potential of our employees.

Responsibilities
OIG is responsible for independently and objectively identifying risks and vulnerabilities that
directly impact DOI’s ability to accomplish its mission. We are required to keep the Secretary
and Congress informed of problems and deficiencies relating to the administration of DOI
programs and operations. As a result of us fulfilling these responsibilities, Americans can expect
greater accountability and integrity in Government program administration.

Activities
OIG accomplishes its mission by conducting audits, inspections, evaluations, and investigations
relating to DOI programs and operations. Our activities are tied to major departmental
responsibilities and assist DOI in developing solutions for its most serious management and
program challenges. These activities are designed to ensure that we prioritize critical issues. Such
prioritizing provides opportunities to influence key decisionmakers and increases the likelihood
that we will achieve desired outcomes and results that benefit the public.




                                                                                Back to Top v
Summaries of
Significant Reports
and Investigations
Office of Audits, Inspections, and Evaluations
Outdated Guidance Leads to Inconsistent Oversight of
Geothermal Program

OIG evaluated the Bureau of Land Management’s (BLM) geothermal program, which is
responsible for issuing leases, inspecting drilling sites, enforcing safety and environmental
rules, and other activities related to the development and production of geothermal resources on
Federal lands. Geothermal energy is defined as heat from the Earth and offers the Nation a clean,
domestic, and abundant renewable resource. Geothermal resources, which can be used to power
electrical generators, are identified as all products of geothermal processes, including indigenous
steam, hot water, and hot brines.

Our review identified two issues that hinder a more effective program. First, operational orders
for geothermal resources, which were issued by BLM to implement and enforce Federal
regulations, were approved more than 30 years ago and fail to account for technological
advancements. BLM personnel reported that four of the seven orders are no longer applicable, as
the provisions have been incorporated into the current Federal regulations.




Geothermal power station.

                                                                                                  2
They also reported that they only use two orders—both of which were approved in 1975—
for regulating geothermal activity. Absent a uniform, current set of orders, BLM relies on
outdated information to oversee the geothermal program and risks noncompliance with Federal
regulations.

Second, BLM has no standardized policy governing the geothermal inspection and enforcement
program; therefore, many offices have developed their own inspection processes, creating
inconsistencies among BLM’s State and field offices. We identified variations in the types of
inspections conducted, in the formats used for conducting inspections, in the frequency of
inspections performed, and in the qualifications and training required for inspectors. We also
found inconsistencies in data collection for inspections because of no formal guidance on data
collection.

We believe that our recommendations to review and update existing orders to create an up-
to-date, uniform set of policies and to standardize and routinely examine the inspection and
enforcement process for geothermal operations provides BLM the opportunity to manage its
geothermal resources more effectively.

Years of Federal Helium Control May Have Left
Critical Resources Undervalued

OIG audited the Bureau of Land Management’s (BLM) helium program to determine if BLM
is charging market value prices for its helium sales to nongovernmental purchasers and whether
BLM needs additional guidance to manage the program.

The Federal Government has effectively controlled the market for helium for almost a century
through its position as a predominant supplier—BLM provides about 40 percent of the Nation’s
helium and 30 percent of helium to the world market. BLM has a responsibility to receive a fair
return on its helium inventory. Current prices, however, are established based on cost rather than
on market value. The market value of BLM’s helium inventory will be potentially much higher
as new and expanding technologies create significant growth in demand.

OIG’s review of the program found that BLM does not have the capability needed to identify
and maintain market value prices for its helium reserve. BLM has historically sold helium
through a limited number of private refiners, which has restricted its ability to determine market
value for its sales by limiting open competition. Due to existing and potential new pending
legislation, BLM likely will sell the vast majority of its remaining helium inventory to private or
nongovernmental purchasers by 2020, so without change to the program, there is no assurance
that BLM will receive market value on the sale of helium.

3
BLM’s current helium inventory is valued at approximately $1 billion. For each percentage point
increase in value, BLM would collect approximately $10 million in additional revenues. To
capitalize on the opportunity to collect additional revenues, BLM needs to identify and charge
market value for all helium sales to nongovernmental purchasers. In addition, BLM’s program
has been operating without formal procedures for nongovernmental sales since it assumed
responsibility for the helium program in 1996; BLM would benefit from the establishment
of formal written procedures for nongovernmental sales to protect against fraud, waste, and
mismanagement and to support helium sales as a revenue enhancement opportunity for the
Government.

Timely action is required to ensure the helium program can operate effectively over the coming
years. The program has a current debt of approximately $44 million, resulting from large helium
purchases made in the 1960s. Program operations are currently funded through BLM’s ability
to access a helium production fund, in which sales proceeds are accumulated. The statutory
authorization for the helium fund expires upon repayment of program debt, which BLM projects
will occur in 2013. After this repayment, the fund established to support the program will
terminate. According to BLM, this would have the effect—absent reauthorization of the fund or
other appropriations action—of ending its ability to pay for program operations.

We recommended that BLM work with DOI’s Office of Minerals Evaluation to develop a
process to identify the fair market value price of helium sold to nongovernmental buyers. Given
the urgency required, we further recommended that BLM implement the new pricing process by
the end of 2013. In addition, we recommended that BLM prepare and implement comprehensive
procedures for managing helium sales to nongovernmental buyers. BLM agreed with all three
recommendations.

DOI To Improve Emergency Action Planning Regulations at
Dams on Federal Land

OIG evaluated the high-hazard dams of the Bureau of Land Management (BLM), National Park
Service (NPS), and Office of Surface Mining Reclamation and Enforcement (OSM) to determine
if emergency action plans (EAPs) are in place, reviewed, updated, and exercised appropriately.
DOI is responsible for managing and ensuring dam safety for the more than 2,600 dams across
the Nation, and the “Departmental Manual” requires that EAPs be prepared for all high- and
significant-hazard dams. High-hazard dams are those whose failure could result in loss of life;
significant-hazard dams are those whose failure would not cause a loss of life but could result in
a significant economic loss.




                                                                                                 4
BLM, NPS, and OSM manage or regulate 838 dams throughout the United States; 29 of those
dams are classified as high hazard. BLM and NPS lands also have about 324 privately owned
dams, of which 133 are classified as high hazard. These privately owned dams are those that
are owned by State and local governments or private landowners, but located within BLM and
NPS lands. OSM does not know how many high-hazard dams are in the non-Federal program.
Dams in the non-Federal program are those in States that have chosen to exercise their primacy
and create an OSM-approved regulatory program; these primacy States have direct regulatory
authority over dams located within their boundaries. BLM, NPS, and OSM do not have a
requirement to directly regulate privately owned or non-Federal dams.

DOI classifies 584 of its 2,600 dams as high or significant hazard. We learned that at these 584
dams, there is an average of 4 dam incidents that occur annually across DOI. These incidents,
while not necessarily resulting in dam failure, can potentially put the public and property at risk.

We found that OSM, BLM, and NPS either have no requirement for EAPs to be in place for all
high-hazard dams under their purview, or have not adequately reviewed, exercised, or formalized
the EAPs that are in place. We also found that none of the three bureaus have a written policy
requiring after-action reports to be prepared following EAP exercises, and when after-action
reports are prepared, recommended corrective actions in these reports are not tracked for
implementation.




                                                  The Imperial Dam on the Colorado River, northeast of Yuma, AZ.
 5
In addition, we found there is no uniform approach to monitoring the privately owned, high-
hazard dams located on BLM and NPS lands, as well as high-hazard, non-Federal dams over
which OSM has no direct regulatory jurisdiction. Neither BLM, NPS, nor OSM have a
requirement to directly regulate such dams, but OIG believes that it is important to both alert
DOI to the existence of these dams and to provide information on how DOI can better monitor
and enforce health and safety concerns.

We issued seven recommendations to help DOI better monitor the high-hazard dams that BLM,
NPS, and OSM are responsible for managing and regulating, including making updates to
existing regulations, ensuring that EAPs are exercised and updated according to regulations,
requiring after-action reports, and including recommended corrective actions that can be tracked
for implementation. We also made four recommendations to help DOI better monitor the high-
hazard dams it does not own, including that Federal officials request observer status during
inspections of privately owned dams and that DOI implement a uniform approach to monitoring
and emergency action planning for privately owned dams on DOI lands. BLM, NPS, and OSM
concurred with all recommendations.

Population Increase To Affect Guam’s Public Safety Needs

OIG evaluated the ability of Guam’s Police Department (GPD), Fire Department (GFD), and
Homeland Security (GHS) to meet the safety and response needs of Guam’s citizens and prepare
for the increase in population due to the potential buildup of U.S. Marine forces. The protection
from and prevention of events endangering the public’s safety, such as crime and natural and
manmade disasters, is a vital function of any government. Guam faces increased challenges in
meeting the current public safety needs of its citizens, as well as the needs associated with the
potential military buildup.

GPD, GFD, and GHS are responsible for safeguarding Guam citizens and visitors. In 2011,
Guam’s population, including the U.S. military, was approximately 180,000. Due to the potential
military buildup, Guam’s population will increase with the relocation of Marines and their
dependents and support services to the island. At the time of our evaluation, the proposed
buildup, based on the relocation of 8,600 Marines, projected an increase of 80,000 people in
Guam. The projected increase includes not only the Marines, but their families, construction
workers, and other jobs that arise with a population increase. The exact impact on Guam’s
population is unknown. Recent developments, however, indicate that the number of relocating
troops may be closer to 4,500.




                                                                                                  6
The Government of Guam (GovGuam) has a public safety program, but it is not well planned or
funded. GPD and GFD are unable to meet the needs of the citizens of Guam or prepare for any
increase in population because of shortcomings in staffing, infrastructure, vehicles, maintenance,
and training.

GHS currently is better prepared to meet the needs of Guam’s citizens, but it receives 100
percent of its budget from Federal funds with no plan to cover the losses of a Federal revenue
stream that will decrease due to grant fund reductions.

Many of the weaknesses we found resulted from inadequate planning and funding from
GovGuam. Specifically, GovGuam has been reactive in funding the agencies’ needs, such as
staffing, vehicles, and maintenance. It also has heavily relied on Federal funding for many of the
agencies’ operational needs. To better address public safety concerns, GPD, GFD, and GHS
should compare the current level of service to the desired level of service and reconcile any
differences through planning, budgeting, and monitoring activities. Guam, however, does not
have sufficient funding to provide the level of service required by Guam laws or Federal
standards. GPD, GFD, and GHS identified areas of need regarding the military buildup, but
funding has not been identified to fulfill those needs. Instead of relying on Federal funding,
which has become common practice, GovGuam needs to find other ways to secure funds for
public safety entities, such as improving the tax collection process and making adjustments to
GovGuam’s tax and fee revenue structure.

To better meet its public safety responsibilities, OIG recommended that GovGuam identify
needs, resources, and service expectations for GPD and GFD and establish a review process to
determine if goals are achieved. We also recommended that GovGuam develop a method to
acquire public safety funding from local sources of revenue.

CVP Rate-Setting Policies Need Adjusting To Ensure
Recovery of Federal Investment

OIG evaluated the Bureau of Reclamation’s (USBR) Central Valley Project (CVP) to determine
whether the Federal Government is on track to recoup its investments by the legally established
deadline of 2030.

USBR began construction of the CVP in California in October 1937. The CVP is currently one of
the largest water supply projects in the United States, providing water to more than 3 million
acres of farmland and to nearly 1 million households each year. As of 2011, the total
reimbursable Federal investment in the CVP facilities providing water for irrigation and
municipal and industrial purposes was $1.3 billion.

7
To recover the Federal investments, USBR established contracts that guaranteed irrigation and
municipal and industrial contractors a fixed, annual repayment rate for 40 years. USBR was
required to establish water rates that generate revenue at least sufficient to cover annual
operations and maintenance costs and the appropriate share of fixed (capital) costs of the project.
The operations and maintenance costs, however, eventually exceeded revenues generated by the
fixed water rates specified in these contracts, making the fixed rates insufficient to recover the
Federal investment in the CVP. As a result, in the first 40 years of the CVP operation, little
progress was made toward repayment of the Federal investments. In 1986, Congress passed
legislation addressing operational repayment deficits and required repayment of the Federal
investment in the CVP by 2030.

USBR is not making steady progress toward recovery of Federal investments in the CVP because
current CVP rate-setting policies, water projection methods, and contract provisions do not
ensure that sufficient revenue is generated each year. For example, water deliveries to the CVP
contractors can be highly variable from year to year. When actual water deliveries are less than
projected deliveries, revenues are insufficient to recover the Federal investment in the project.
When actual water deliveries exceed projected deliveries, however, existing contract provisions
stipulate that excess revenues collected by USBR must be refunded to the contractors.

USBR has 18 years remaining to ensure that the repayment requirement is met. The longer
USBR waits to act, the greater the impact will become as 2030 approaches. This could cause
significant, if not unsustainable, rate increases to water contractors, creating the potential for
rates to exceed contractors’ ability to pay. Rate increases could also lead to contractors requesting
that Congress extend the repayment deadline beyond 2030, or provide additional repayment
relief.

Our report included two recommendations, to which USBR concurred, to help USBR improve its
rate-setting policies and ensure stable repayment of the entire Federal investment by 2030.

Inadequate Communication a Problem for
BIA’s Social Services Program

The Bureau of Indian Affairs (BIA) provides tribes about $137 million each year in social
services funding to provide welfare assistance for almost 2 million individuals in 566 recognized
tribes. OIG reviewed the social services program to determine whether BIA has established and
effectively communicated well-defined roles and responsibilities for delivering social services,
and has provided adequate support and oversight of BIA-managed or tribally contracted social
services programs, such as welfare and child assistance.


                                                                                                   8
OIG found unclear guidance as it relates to performance standards and roles and responsibilities
that kept Bureau personnel from understanding and successfully conducting their work. We also
found that communication among managers, staff, and tribes was ineffectual, demonstrated by
the absence of clear instructions for data calls, inability to share social service information across
all necessary BIA social service channels, and failure to respond to funding requests for welfare
assistance applicants.

Such inadequate communication has hindered effective functioning of social services programs.
It also made it difficult for us to precisely determine if BIA’s social service program was
effectively administered, if cases were adequately managed, if Bureau-level social services data
were accurate or reliable, and if tribal members applying for social services were receiving what
they needed.

We offered seven recommendations that suggested BIA update the Bureau manual to clearly
define the roles and responsibilities of its employees, create a training plan for tribes that clarifies
programmatic points of contact and addresses roles and responsibilities for tribes and BIA,
benchmark elements of the program that can serve as best practices, and develop a performance
plan that includes outcome-based goals and measures to help BIA manage its social services
resources more effectively. BIA concurred with all but one of our recommendations.

Strict Internal Controls Safeguard DOI Check-Writing Program

OIG evaluated DOI’s check-writing program to review internal controls related to third-party
drafts (TPDs) and convenience checks at the Bureau of Land Management (BLM), the National
Park Service, and the Bureau of Reclamation.

While DOI must by law pay by electronic funds transfer for most goods and services acquired to
further the DOI mission, payment by convenience check connected to U.S. Government charge-
card accounts can be used when a merchant does not accept charge cards or for emergency
incident response. Convenience checks can be used up to $3,000 for supplies; $2,500 for
services; $2,000 for construction; $10,000 for emergency incidents; and $25,000 for the Alaska
Fire Crew. Until the end of fiscal year 2011, some bureaus also used TPDs to make these
payments, but use of TPDs has been discontinued.

We found that internal controls over convenience checks, if implemented in accordance with
established procedures, should help reduce the risk of fraud, waste, or mismanagement in the
check-writing program. Established procedures for check writing include—




9
   •   a detailed review of monthly charge-
       card statements requiring approving
       officials to review each transaction;
   •   a monthly program review by the
       agency or organizational program
       coordinator; and
   •   retaining the original receipt along
       with a carbon copy of the check as
       supporting documentation.

In addition, DOI has started a pilot program
at BLM that includes a process to reconcile
charge-card and convenience-check purchases
electronically. OIG will test the pilot program
and work with DOI to ensure that internal
controls are in place with the electronic
charge-card reconciliation.

To further safeguard the check-writing
program from fraud, waste, and
mismanagement, OIG recommended that all
check-writing bureaus evaluate their monthly
reconciliation process and that DOI require
training more frequently than every 3 years
for check writers and their approving officials.
DOI concurred with both recommendations.




                                                   Alaska Fire Crew team at work.




                                                                                    10
Office of Investigations
OIG Takes Proactive Approach to Oversight of
Super Storm Sandy Recovery Efforts

In October 2012, Super Storm Sandy devastated States along the East Coast from Florida to New
England, prompting President Obama to issue major disaster declarations in Connecticut, New
Jersey, and New York, as well as emergency declarations in Delaware, the District of Columbia,
Maryland, Massachusetts, New Hampshire, Pennsylvania, Rhode Island, Virginia, and West
Virginia.

In the wake of one of the costliest natural disasters in U.S. history, DOI mobilized resources
to expedite storm recovery on impacted Federal and tribal lands. OIG responded accordingly,
as those emergency declarations invoked acquisition flexibilities authorized in the Federal
Acquisition Regulation and gave rise to unusual and compelling needs for supplies and services.




                                                Damage to Breezy Point, NY, resulting from Super Storm Sandy.


11
OIG has taken a proactive stance with oversight related to DOI’s emergency recovery efforts.
We have increased oversight of purchase-card usage and developing contracts, escalated our
outreach efforts and fraud awareness briefings with responding DOI bureaus, coordinated with
the Recovery Accountability and Transparency Board, and liaised with the U.S. Attorneys’
Offices in affected States, as well as the U.S. Department of Justice’s Anti-Trust Division. We
continue to collaborate with the Federal Emergency Management Agency and the FBI. We
support DOI as it restores the damage created by Super Storm Sandy and are monitoring every
channel of recovery spending.

Termination of Unauthorized Degree Funding Saved DOI $60,000

OIG investigated the Chief for the Assistant Secretary Support Division of Indian Affairs after
receiving a complaint that the Chief approved an unauthorized request for academic-degree
training for a subordinate employee. The Chief terminated the complainant’s employment,
subsequent to acknowledging that he suspected the employee had submitted the complaint.
The complainant later alleged that his employment was terminated because he reported the
unauthorized degree funding to OIG.

OIG determined that the Chief authorized $83,160 to fund an employee’s request for a master’s
of business administration (MBA) degree at Georgetown University in Washington, DC. Our
investigation revealed that the authorization was not preplanned and that the employee did not
sign a continued-service agreement, as required.

As a result of our investigation, the complainant received $35,000 in back pay and was hired
for a 6-month term position with the Bureau of Indian Affairs. The Chief received a 14-day
suspension, and the financing of the MBA was terminated, saving DOI approximately $60,000.

Tribal Officials Indicted for Theft of Federal Funds

In January 2011, the FBI informed OIG of allegations concerning theft of tribal funds by tribal
members of the Mashantucket Pequot Tribal Nation. The joint investigation found that Steven
Thomas was provided a salary for a job he never performed, and other tribal members made
numerous purchases on tribal credit cards for personal benefit.

On January 4, 2013, Steven Thomas and his brother, Michael Thomas, were indicted in the
U.S. District Court for the District of Connecticut on one count of theft from an Indian tribal
organization and two counts of theft from an Indian tribal government receiving Federal funds.
Trial was scheduled for November 12, 2013.


                                                                                                  12
Fort Peck Community College Instructor Pleads Guilty to
Theft of Federal Funds, False Claims

In a joint investigation with the U.S. Attorney’s Guardians Project, the FBI, and the Internal
Revenue Service’s Criminal Investigative Division, OIG investigated Jerome Seaman, a
mathematics instructor and grant administrator at the Fort Peck Community College in Poplar,
MT, for submitting false travel records.

Seaman was responsible for providing training and meeting opportunities designed to benefit
the college and enhance the benefits of Federal grants that he was responsible for administering.
These opportunities required travel, and since the travel was job related, it was reimbursable
from the Federal grants received by the college.

The investigation found that Seaman submitted false records for 12 trips he completed between
December 2009 and March 2011. Seaman often made alternate travel plans, failed to attend
trainings or conferences for which the travel was scheduled, and made claims against Federal and
college finances as if he had not engaged in personal activities while on travel.

Seaman fabricated and falsified hotel receipts to support his reimbursement claims. He received a
total of $19,359 in reimbursement of travel costs. He also received $9,668 in wages from the
college for time periods covered by these trips that he would not have been entitled to receive if
the college knew that he traveled on what amounted to unauthorized personal leave.

Seaman pled guilty on March 29, 2013, in the U.S. District Court for the District of Montana to
theft from an Indian tribal organization receiving Federal grants, a Federal False Claims Act
violation, and false writings affecting Federal monies. Sentencing was scheduled for July 1,
2013.

Crow Tribe Employees Indicted on Multiple Charges of
Theft and Defrauding the Government

OIG, the FBI, and the Internal Revenue Service’s Criminal Investigation Division conducted a
joint investigation of Crow Tribe Historic Preservation Office (THPO) employees for receiving
payment for cultural monitoring duties directly from the companies for whom the monitoring
work was being performed. Crow Tribe officials indicated that this practice circumvented the
procedure that requires the Crow Tribe financial office to submit invoices to companies for
cultural monitoring work performed, and the companies remit payment to the Crow Tribe for
those services.


13
The investigation determined that the former THPO director told companies to pay the THPO
employees directly for performing cultural monitoring duties. In addition, the majority of
individuals who received direct payments for performing cultural monitoring duties were
relatives of the former director.

The investigation also determined that only two individuals were properly trained to conduct
cultural monitoring and that two individuals that claimed to be THPO employees and were paid
for performing cultural monitoring duties were never employed by THPO.

Between July 17, 2009, and November 21, 2011, seven individuals, including three relatives of
the former director, received direct payments totaling more than $500,000 from companies for
cultural monitoring duties performed on behalf of THPO.

The former director and the seven individuals were indicted on November 14, 2012, by a Federal
Grand Jury in the U.S. District Court for the District of Montana for conspiracy to defraud the
Crow Tribe, mail fraud, theft from an organization receiving Federal funds, theft from an Indian
tribal organization, extortion involving a Federally funded program, and Federal income tax
fraud.

One defendant died on December 5, 2012. In January 2013, three defendants pled guilty in U.S.
District Court for the District of Montana pursuant to plea agreements, two pled guilty to theft
from an organization receiving Federal funds, and one pled guilty to a superseding information
charging him with theft. The sentencing date was scheduled for May 1, 2013. The trial for the
remaining defendants was scheduled for June 10, 2013.

Two Executives Fraudulently Obtain Millions in
Federal Contract Payments

On March 13 and March 15, 2013, Keith Hedman and Dawn Hamilton, of an Arlington, VA-
based security company, pled guilty to fraudulently obtaining more than $31 million in
Government contract payments that should have gone to disadvantaged small businesses.
Hamilton pled guilty to major fraud against the United States, while Hedman pled guilty to major
fraud against the United States and conspiracy to commit bribery. DOI’s National Business
Center contracted with one of the businesses in 2010 with payments totaling $52,682; these
funds were involved in the fraud scheme and are subject to restitution. OIG assisted the National
Aeronautics and Space Administration OIG, the Small Business Administration OIG, and the
U.S. Department of Homeland Security OIG during the investigation. Sentencing was scheduled
for June 2013.


                                                                                               14
Contractor Pleads Guilty to Defrauding Oil Lease Investors

OIG and the FBI conducted a joint investigation into allegations that Mike Alfons Campa, an
employee from Domestic Energy Solutions (DES), a private energy company, engaged in a
fraudulent oil lease investment scheme on the Fort Peck Indian Reservation. The Bureau of
Indian Affairs provided a copy of a March 7, 2011 letter from Campa—acting under the alias
Mike Heretel—to an investor in which Campa purported that a $4,000 investment entitled the
investor to a 0.5 percent ownership in DES and all income generated from three specific oil
leases on the Reservation. Fort Peck Agency personnel confirmed that Campa did not own the oil
leases referenced in the letter.

We determined that Campa and five others—Suzette Gulyas Gal, Andras Zoltan Gal, Steven
William Carpenter, Krisztian Zoltan George Gal, and Dana Yvonne Kent—solicited
approximately $673,406 from investors in connection with their fraudulent oil and gas leases on
the Fort Peck Indian Reservation.

On September 5, 2012, the Federal Grand Jury in the U.S. District Court for the District of
Montana indicted the six individuals. The indictments charged each defendant with one count of
conspiracy, one count of wire fraud, and one count of mail fraud.

Kent pled guilty to wire fraud on January 2, 2013. Trial for the remaining defendants was
scheduled for April 29, 2013.

Energy Companies Renegotiate Settlement to Federal Government

Following a joint investigation between the OIG Energy Investigations Unit and the U.S.
Department of Justice (DOJ), Gunnison Energy Corporation (GEC) and SG Interests I and VII
Ltd. (SG) renegotiated settlements of $245,000 and $206,250, respectively, to the Federal
Government to resolve allegations that they violated the False Claims Act by bidding on four
natural gas leases sold at auction by the Bureau of Land Management (BLM) after agreeing not
to compete. The investigation found that GEC and SG entered into two improper agreements
under which it was agreed that SG would bid on leases at the BLM auctions, and if it won, would
assign an undivided 50 percent interest in the Federal leases to GEC.

As part of BLM’s bidding process, however, SG completed and signed a bid form certifying that
the winning bid was reached independently and without collusion for the purpose of restricting
competition and that it had not unlawfully combined or intimidated bidders. The investigation
found that SG falsely certified these forms since SG and GEC colluded to drive down the price
of the bids for leases.

15
DOJ renegotiated the original settlement value of
$550,000 after a judge ruled in part that the
earlier settlement, which included alleged civil
antitrust violations, should have been negotiated
separately.

Offshore Oil Company Pleads
Guilty to Tampering With
Water Quality Results

OIG and the U.S. Environmental Protection
Agency jointly investigated W&T Offshore Inc.
(W&T) for falsely representing the levels of
pollutants contained in its water samples.
Between January 1, 2009, and January 3, 2013,
W&T operated a manned offshore facility
designed for the production of oil and gas in the
Gulf of Mexico. W&T was required to conduct its
production in accordance with a National
Pollutant Discharge Elimination System
(NPDES) permit, which limited the type and
amount of pollutants that W&T was legally
allowed to discharge into the Gulf of Mexico.

The investigation found that W&T had failed to
follow prescribed procedures and testing outlined
by the NPDES permit. On at least six occasions,
employees of a contractor working for W&T had
run the produced water samples through coffee
filters before submitting the samples to a
laboratory for testing.

By filtering the water, the contractor negated the
authenticity of the water samples, which
decreased regulatory oversight on W&T and
reduced additional costs to which W&T may have       Offshore drilling rig in the Gulf of Mexico.
been subjected.



                                                                                                    16
The investigation also found that on or about November 22, 2009, oil vented out of the facility’s
flare boom and onto a grated platform and production equipment. Bureau of Safety and
Environmental Enforcement inspectors arrived on site approximately 5 days later and observed
oil stains on the platform. W&T did not report the issue to the Coast Guard National Response
Center prior to the arrival of the inspectors.

On January 3, 2013, W&T pled guilty in the U.S. District Court for the Eastern District of
Louisiana to one felony count of tampering with, falsifying, or rendering inaccurate a monitoring
method required to be maintained under the Clean Water Act and one misdemeanor count of
negligent discharge of oil into the navigable waters of the United States. W&T was ordered to
pay the United States a monetary penalty of $1 million, placed on probation for 36 months, and
ordered to pay a special assessment fine of $525. During the probationary period, W&T is
required to submit to audits on most of its 107 offshore facilities.

Petroleum Company Pays $416,000 Settlement

An investigation into Yates Petroleum Corporation (YPC) resulted in a settlement agreement in
which YPC agreed to pay $416,000 to settle civil claims that it submitted false statements and
underpaid Federal mineral royalties associated with the measurement and reporting of natural gas
produced from 12 Federal leases within Wyoming’s Powder River Basin.

As a Federal onshore lease operator, YPC was required to comply with all Federal regulations
and Bureau of Land Management (BLM) gas measurement standards. The investigation found
that the company used gas measurement devices that did not comply with measurement
standards established by BLM, and YPC continued to use noncompliant gas measurement
devices on Federal wells until April 2012 despite notification from BLM in January 2009 that the
devices were not approved for use on Federal leases. In addition, YPC submitted compliance
plans stating it would comply with BLM standards yet still continued using the noncompliant
devices.

This investigation was settled with assistance provided by BLM and the Office of Natural
Resources Revenue.

USGS Employee Removed From Service for
Misuse of Government Credit Card

OIG investigated allegations that Brandon Barnes, a U.S. Geological Survey (USGS) information
technology specialist, used his Government-issued credit card to purchase merchandise for
personal use. DOI discovered the theft after identifying thousands of dollars in gift cards

17
purchased using the employee’s credit card.

OIG determined that Barnes charged $38,431 in merchandise for personal use over a 15-month
period and concealed the illegitimate purchases by altering receipts to make them appear to be
information technology purchases for use in the office. The purchases remained undetected
because the statements only stated a purchase amount and retailer on the description of itemized
purchases. USGS paid directly for all of the purchases. Barnes ultimately confessed to the misuse
of his Government credit card and was removed from his position on August 17, 2012.

On December 4, 2012, a Federal Grand Jury in the U.S. District Court for the District of
Colorado indicted Barnes on 38 counts of theft of Government property. Barnes pled guilty on
February 22, 2013, to one count of theft of Government funds and was scheduled for sentencing
on May 20, 2013.

DOI Employee Misuses Government Purchase Card,
Will Pay Personal Restitution

An OIG investigation revealed that between June and September 2012, an Office of the Secretary
office manager misused a Government purchase card by making unauthorized purchases that
were personal in nature and did not pertain to official Government business. The employee will
pay personal restitution in the amount of $18,343 to the financial institution that issued the
purchase card.

Contractor Sentenced on Wire Fraud Count

After receiving a referral from two Government Accountability Office investigations and from
the Recovery Accountability and Transparency Board, OIG investigated Patrick Large, the owner
of Quality Tile Roofing (QTR), for fraudulently obtaining Federal set-aside contracts through the
U.S. Small Business Administration (SBA) HUBZone Program. The investigation found that
Large conspired with others to operate two additional roofing companies, Construction Service
Corporation (CSC) and McDonald Roofing and Construction (MRC). CSC and MRC were used
as pass-through companies to obtain Federal contracts that QTR then performed or
subcontracted. Between 2005 and 2010, MRC, CSC, and various other related partnerships and
joint ventures were awarded more than 21 questioned Government contracts with award amounts
totaling over $21 million. Twelve of those were awarded through various DOI agencies. CSC
was awarded three DOI HUBZone set-aside contracts, and MRC was awarded one DOI
HUBZone set-aside contract.



                                                                                              18
CSC and MRC made false statements regarding their business operations, ownership, and control
to qualify for the SBA HUBZone Program and obtain set-aside Government contracts that QTR
would otherwise not have been eligible to receive. The investigation revealed that QTR, or other
companies subcontracted by QTR, performed the majority of the work.

Large pled guilty in the U.S. District Court for the District of Idaho on September 18, 2012, to
one count of wire fraud and was sentenced on January 8, 2013, to 2 years of probation, including
8 months of home confinement, 80 hours of community service, and a fine of $20,000. He also
forfeited $150,000 to the Government.

Guam Contractor Pleads Guilty to Wire Fraud

OIG investigated Cynthia De Castro, the operations manager of CHB International, Inc., for
attempting to defraud the Government by knowingly supplying noncompliant equipment to DOI.
CHB was contracted to supply and install emergency generators with shelters for five public
schools in Guam. De Castro knew that the generators were required to meet U.S. Environmental
Protection Agency (EPA) standards but devised a scheme to defraud the Government of Guam
and DOI by obtaining money from them by supplying generators that were manufactured in
China and that she knew did not meet EPA standards.

De Castro pled guilty on January 29, 2013, in the U.S. District Court for the Territory of Guam to
one count of wire fraud. She was scheduled to be sentenced on May 30, 2013.

Former NPS Employee Pleads Guilty to Viewing Child Pornography

OIG investigated Lino Sanchez, a National Park Service (NPS) employee, for viewing child
pornography after an automatic network screening tool alerted officials of an unauthorized use of
a Government computer. Our investigation determined that Sanchez used a Government
computer to browse the Internet to locate, view, and download child pornographic material.
Sanchez retired as soon as eligible upon investigation.

On January 25, 2013, Sanchez pled guilty in the U.S. District Court for the Eastern District of
Virginia to one count of accessing the Internet with intent to view child pornography. Sentencing
was scheduled for July 12, 2013.




19
Former USGS Employee Confesses to Viewing Pornography

OIG investigated a former U.S. Geological Survey (USGS) employee after receiving information
that the employee was viewing child pornography using Government-issued equipment. The
DOI Advance Security Operations Center reported that an IP address, originating from USGS,
was used to access child pornographic Web sites in Russia.

Computer analysis reflected that the employee had surreptitiously masked his computer use so it
would appear that a coworker accessed the Russian Web sites. Further investigation indicated
that the employee accessed the Web sites remotely through his coworker’s computer.

The employee subsequently confessed that he viewed nude photographs of mature women only
and remotely accessed his coworker’s computer to avoid detection because he had been
counseled in the past for similar behavior. On November 2, 2012, the employee retired in lieu of
termination and voluntarily waived any future employment or contractual obligations with DOI.

Former BIA Employee Sentenced to 30 Months of Incarceration

Working jointly with the U.S. Department of Homeland Security’s Office of Investigations, OIG
investigated Jasper Blair, a Bureau of Indian Affairs (BIA) employee, for viewing child
pornography. BIA terminated Blair’s employment. Blair was indicted on one count of knowingly
and unlawfully receiving an image of child pornography.

Blair pled guilty on May 31, 2012, in the U.S. District Court for the District of Oregon to one
count of possession of child pornography and was sentenced on October 4, 2012, to 30 months of
Federal incarceration, followed by 10 years of probation. Blair voluntarily surrendered to begin
serving his sentence on October 5, 2012.




                                                                             Back to Top 20
Appendices
                                                                                                                                    Appendix 1
Investigations Statistical Highlights
October 1, 2012 – March 31, 2013

Investigative Activities
Cases Closed................................................................................................................................167
Cases Opened...............................................................................................................................173
Complaints Received From All Sources.......................................................................................245

Criminal Investigation Outcomes
Indictments/Informations...............................................................................................................20
Convictions....................................................................................................................................13
Sentencings......................................................................................................................................5
   Jail................................................................................................................................30 months
   Community Service........................................................................................................80 hours
   Probation....................................................................................................................300 months
   Criminal Penalties.................................................................................................$4,401,175,825
Criminal Matters Referred for Prosecution....................................................................................20
Criminal Matters Declined This Period..........................................................................................10

Civil Prosecution Outcomes
Civil Referrals...................................................................................................................................6
Civil Declinations.............................................................................................................................4
Civil Settlements..................................................................................................................$867,250

Administrative Investigation Outcomes
Restitution.............................................................................................................................$18,344
Resignations/Retirements..................................................................................................................2
Reprimands/Counseling....................................................................................................................8
General Policy Actions....................................................................................................................10
Procurement and Non-Procurement Exclusions
  Suspensions..................................................................................................................................4
   Debarments..................................................................................................................................7




                                                                                                                                               22
Appendix 1
Audits, Inspections, and Evaluations
Statistical Highlights
Audit, Inspection, and Evaluation Activities
Reports Issued.................................................................................................................................32
  Performance Audits, Financial Audits, Evaluations, Inspections, and Verifications.................19
  Contract and Grant Audits..........................................................................................................13
  Single Audit Quality Control Reviews........................................................................................0

Audit, Inspection, and Evaluation Impacts
Total Monetary Impacts....................................................................................................$2,287,839
   Questioned Costs (includes unsupported costs)..........................................................$1,929,163
   Recommendations That Funds Be Put to Better Use.....................................................$358,676

     Audit, Inspection, and Evaluation Recommendations Made..................................................130
     Audit, Inspection, and Evaluation Recommendations Closed...................................................55




23
                                                                                        Appendix 2
Reports Issued During the 6-Month Reporting Period
This listing includes all audit, inspection, and evaluation reports issued during the 6-month
period that ended March 31, 2013. It provides the report number, title, issue date, and monetary
amounts identified in each report (* Funds To Be Put to Better Use, ** Questioned Costs, and
*** Unsupported Costs).

Audits, Inspections, and Evaluations

       Bureau of Land Management

               K-MA-BLM-0005-2012
               Management Advisory – Issues Identified During Our Audit of Nevada Fire Safe
               Council Claimed Costs Under Cooperative Agreements with Bureau of Land
               Management From January 1, 2008, Through February 29, 2012 (11/05/2012)

               CR-EV-BLM-0004-2012
               Final Evaluation Report – Bureau of Land Management’s Geothermal Resources
               Management (03/07/2013)

       Bureau of Reclamation

               WR-EV-BOR-0003-2012
               Final Evaluation Report – Central Valley Project, California: Repayment Status
               and Payoff (03/26/2013)

               ISD-AT-BOR-0002-2012
               Final Inspection Report – IT Security of the Hoover Dam Supervisory Control
               and Data Acquisition System (03/29/2013)

       Indian Affairs

               WR-EV-BIA-0003-2013
               Management Advisory – Impediments to the Management of Social Services in
               the Bureau of Indian Affairs (12/13/2012)




                                                                                                24
Appendix 2
             ZZ-IN-BIA-0002-2013
             Office of Inspector General’s Independent Report on the Bureau of Indian Affairs’
             Fiscal Year 2012 Accounting and Performance Summary Review Reports for the
             Office of National Drug Control Policy (02/28/2013)

             WR-EV-BIA-0001-2012
             Final Evaluation Report – Management of Social Services in BIA: Opportunity
             for Action (03/18/2013)

       Insular Area Reports

             HI-EV-GUA-0002-2011
             Final Evaluation Report – Guam Public Safety (11/20/2012)

             VI-EV-VIS-0002-2013
             Evaluation – Verification of Watch Quota and Jewelry Quota Data for Calendar
             Year 2012 Submitted by Firms Located in the U.S. Virgin Islands (03/14/2013)

       Multi-Office Assignments

             ER-SP-MOI-0002-2012
             Inspector General’s Statement Summarizing the Major Management and
             Performance Challenges Facing the U.S. Department of the Interior (10/15/2012)

             C-EV-MOA-0009-2011
             Final Evaluation Report – Controls over Check Writing (10/31/2012)

             C-IN-MOA-0010-2011
             Final Audit Report – Bureau of Land Management’s Helium Program
             (11/09/2012)

             ISD-EV-MOA-0001-2012
             Independent Auditors’ Performance Audit Report on the U.S. Department of the
             Interior Federal Information Security Management Act for Fiscal Year 2012
             (11/13/2012)

             X-IN-MOA-0002-2012
             Independent Auditors’ Report on the U.S. Department of the Interior Financial
             Statements for Fiscal Years 2012 and 2011 (11/15/2012)

25
                                                                                  Appendix 2
           X-IN-MOA-0003-2012
           Independent Auditors’ Report on the U.S. Department of the Interior Special-
           Purpose Financial Statements for Fiscal Years 2012 and 2011 (11/16/2012)

           X-IS-MOA-0001-2013
           Final Inspection Report – Information Technology Security With the
           Departmental Cloud Email Solution (12/12/2012)

           WR-EV-MOA-0015-2011
           Final Evaluation Report – Bureau of Land Management, National Park Service,
           and Office of Surface Mining Reclamation and Enforcement’s Safety of Dams:
           Emergency Preparedness (12/27/2012)

     Office of Insular Affairs

           HI-EV-OIA-0003-2012
           Final Evaluation Report – Guam Public Safety (11/20/2012)

     Office of the Special Trustee for American Indians

           X-IN-OST-0005-2012
           Independent Auditors’ Report on the Office of the Special Trustee for American
           Indians Tribal and Other Trust Funds and Individual Indian Monies Trust Funds
           Financial Statements for Fiscal Years 2012 and 2011 (11/09/2012)

Contract and Grant Audits

     Bureau of Land Management

           C-CA-BLM-0005-2012
           Audit of the Cooperative Agreement (L09AC15370) Between the Bureau of Land
           Management and Pueblo de Cochiti to Co-Manage the Kasha-Katuwe Tent Rocks
           National Monument (11/23/2012)

           K-CA-BLM-0004-2012
           Audit – Nevada Fire Safe Council Claimed Costs Under Cooperative Agreements
           With Bureau of Land Management From January 1, 2008, Through
           February 29, 2012 (01/30/2013) **$962,623 ***$581,597


                                                                                            26
Appendix 2
       Bureau of Reclamation

             ER-CX-BOR-0001-2013
             Final Audit Report – Claimed Costs by Chenega Security and Protection Services
             Under Contract No. 10PC20754 With the Bureau of Reclamation (02/20/2013)
             **$58,482 ***$28,725

       U.S. Fish and Wildlife Service

             R-GR-FWS-0013-2012
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the State of Alaska, Department of Fish and Game, From
             July 1, 2009, Through June 30, 2011 (10/24/2012)

             R-GR-FWS-0009-2012
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the State of Connecticut, Department of Energy and
             Environmental Protection, Bureau of Natural Resources, From July 1, 2009,
             Through June 30, 2011 (10/25/2012) *$24,833

             X-CX-FWS-0006-2012
             Final Audit Report – Costs Claimed by K-Con, Inc., for Request for Equitable
             Adjustment Under Contract No. F-10PD79322 with the U.S. Fish and Wildlife
             Service (10/25/2012) **$218,106 ***$1,308

             R-GR-FWS-0008-2012
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the State of New York, Department of Environmental
             Conservation, From April 1, 2009, Through March 31, 2011 (11/02/2012)
             **$32,997

             R-GR-FWS-0012-2012
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the Government of Guam, Department of Agriculture, From
             October 1, 2009, Through September 30, 2011 (11/14/2012)

             R-GR-FWS-0011-2012
             U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
             Grants Awarded to the State of Iowa, Department of Natural Resources, From
             July 1, 2009, Through June 30, 2011 (11/28/2012)
27
                                                                            Appendix 2
     R-GR-FWS-0010-2012
     U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
     Grants Awarded to the State of Nebraska, Game and Parks Commission, From
     July 1, 2009, Through June 30, 2011 (11/30/2012) *$14,886

     R-GR-FWS-0014-2012
     U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
     Grants Awarded to the State of Ohio, Department of Natural Resources, From
     July 1, 2009, Through June 30, 2011 (03/22/2013) *$318,957

     R-GR-FWS-0004-2013
     U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
     Grants Awarded to the State of Illinois, Department of Natural Resources, From
     July 1, 2010, Through June 30, 2012 (03/29/2013)

U.S. Geological Survey

     ER-CX-GSV-0002-2013
     Final Audit Report – Interim Cost Audit Claimed by ASRC Research and
     Technology Under Contract No. 08PC91508 With the U.S. Geological Survey
     (03/22/2013) **$45,325




                                                                                      28
Appendix 3
Monetary Resolution Activities
Table 1: Inspector General Reports With Questioned Costs*

                                 Number of Reports   Questioned Costs*    Unsupported Costs
 A. For which no                        2                      $516,454             $200,965
 management decision
 has been made by the
 commencement of
 the reporting period.
 B. Which were issued                        5               $1,929,163             $611,630
 during the reporting
 period.
 Total (A+B)                                 7               $2,445,617             $812,595
 C. For which a                              3                $257,900                $1,308
 management decision
 was made during the
 reporting period.

 (i) Dollar value of                                          $257,900                $1,308
 recommendations
 that were agreed to
 by management.

 (ii) Dollar value of                                               $0                   $0
 recommendations
 that were not agreed
 to by management.
 D. For which no                             4               $2,187,717             $811,287
 management decision
 had been made by the
 end of the reporting
 period.


*Note: Does not include non-Federal funds.




29
                                                                                Appendix 3
Monetary Resolution Activities
Table II: Inspector General Reports With Recommendations
         That Funds Be Put to Better Use*

                                             Number of Reports   Dollar Value
 A. For which no management                         1                            $8,504
 decision has been made by
 the commencement of the
 reporting period.
 B. Which were issued during                        3                       $358,676
 the reporting period.
 Total (A+B)                                        4                       $367,180
 C. For which a management                          2                       $343,790
 decision was made during the
 reporting period.

 (i) Dollar value of                                                        $343,790
 recommendations that were
 agreed to by management.

 (ii) Dollar value of                                                                 $0
 recommendations that were
 not agreed to by management.
 D. For which no                                    2                           $23,390
 management decision had
 been made by the end of the
 reporting period.


*Note: Does not include non-Federal funds.




                                                                                       30
Appendix 4
Summary of Reports Over 6 Months Old
Pending Management Decision
This listing includes a summary of audit, inspection, and evaluation reports that were more than
6 months old on March 31, 2013, and still pending a management decision. It provides report
number, title, issue date, and number of unresolved recommendations.

Audits, Inspections, and Evaluations

       Bureau of Ocean Energy Management

               CR-EV-MMS-0015-2010
               A New Horizon: Looking to the Future of the Bureau of Ocean Energy
               Management, Regulation and Enforcement (12/07/2010); 1 Recommendation

       Indian Affairs

               CR-EV-BIA-0001-2011
               Final Evaluation Report – Oil and Gas Leasing in Indian Country: An Opportunity
               for Economic Development (09/24/2012); 2 Recommendations

               WR-EV-BIA-0001-2011
               Advisory – Indian Land Consolidation: Mass Appraisals of Indian Lands
               (06/13/2011); 1 Recommendation

               WR-EV-BIA-0005-2011
               Final Evaluation Report – Bureau of Indian Affairs’ Law Enforcement
               Recruitment Services Contract with the National Native American Law
               Enforcement Association (05/09/2012); 1 Recommendation

               WR-EV-BIA-0009-2012
               Advisory – Indian Land Consolidation: Probate and Estate Planning Activities
               (08/16/2012); 3 Recommendations




31
                                                                             Appendix 4
Insular Area Reports

     HI-EV-GUA-0001-2011
     Final Report – Evaluation of Guam Power Authority (08/09/2012);
     1 Recommendation

     P-EV-FSM-0001-2007
     Kosrae State, Federated States of Micronesia: Property Accountability Process
     Needs To Be Improved (10/17/2007); 3 Recommendations

     VI-EV-VIS-0002-2009
     Evaluation Report – Energy Production in the Virgin Islands (12/28/2009);
     4 Recommendations

     VI-IN-VIS-0001-2010
     Audit Report – Administrative Functions - Legislature of the Virgin Islands
     (11/28/2011); 1 Recommendation

     VI-IN-VIS-0003-2009
     Final Audit Report – Capital Improvement Projects Administrative Functions -
     Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
     1 Recommendation; $443,300 unresolved

     VI-IS-VIS-0004-2009
     Inspection Report – Security Improvements at the Governor’s Private Residence
     (01/19/2010); 4 Recommendations; $490,000 unresolved

Multi-Office Assignments

     C-IN-MOA-0013-2010
     Final Audit Report – Management of Rights-of-Way in the U.S. Department of
     the Interior (09/27/2012); 1 Recommendation

U.S. Fish and Wildlife Service

     C-IS-FWS-0017-2010
     Inspection – Status of Rocky Flats National Wildlife Refuge (07/21/2011);
     1 Recommendation


                                                                                     32
Appendix 4
             WR-EV-FWS-0003-2011
             Evaluation Report – U.S. Fish and Wildlife Service Conservation Easement
             Monitoring and Enforcement (01/09/2012); 2 Recommendations

Contract and Grant Audits

       Insular Area Reports

             P-GR-NMI-0003-2005
             Evaluation of Saipan Public Health Facility Project: Oversight of Capital
             Improvement Projects, Commonwealth of the Northern Mariana Islands
             (06/08/2007); 1 Recommendation

       U.S. Fish and Wildlife Service

             R-GR-FWS-0008-2004
             U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
             State of Idaho, Department of Fish and Game, From July 1, 2001, Through
             June 30, 2003 (09/30/2005); 15 Recommendations; $519,469 unresolved

             R-GR-FWS-0029-2003
             U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
             State of Washington, Department of Fish and Wildlife From July 1, 2000,
             Through June 30, 2002 (03/31/2004); 1 Recommendation




33
                                                                                     Appendix 5
Summary of Reports Over 6 Months Old Pending
Corrective Action
This listing includes audit, inspection, and evaluation reports more than 6 months old with
management decisions for which corrective action has not been completed. It provides report
number, title, issue date, and the number of recommendations without final corrective action.
These audits, inspections, and evaluations continue to be monitored by the Branch Chief for
Internal Control and Audit Follow-up, Assistant Secretary for Policy, Management and Budget,
for completion of corrective action.

       Bureau of Land Management

              CR-EV-BLM-0002-2009
              Evaluation of Bureau of Land Management’s Oil and Gas Lease Auction Process
              (08/26/2009); 1 Recommendation

              CR-EV-BLM-0001-2009
              Evaluation Report of the Bureau of Land Management’s Oil and Gas Inspection
              and Enforcement Program (12/02/2010); 5 Recommendations

              C-IS-BLM-0018-2010
              Bureau of Land Management Wild Horse and Burro Program (12/13/2010);
              3 Recommendations

              CR-EV-BLM-0004-2010
              Final Evaluation Report – Bureau of Land Management’s Renewable Energy
              Program: A Critical Point in Renewable Energy Development (06/12/2012);
              7 Recommendations

              ER-IS-BLM-0003-2012
              Inspection – Bureau of Land Management: Meadowood Equestrian Facility
              (09/27/2012); 2 Recommendations

       Bureau of Ocean Energy Management

              CR-EV-MMS-0015-2010
              A New Horizon: Looking to the Future of the Bureau of Ocean Energy
              Management, Regulation and Enforcement (12/07/2010); 24 Recommendations

                                                                                            34
Appendix 5
       Bureau of Reclamation

             C-IS-BOR-0006-2010
             Inspection Report – Museum Collections: Preservation and Protection Issues with
             Collections Maintained by the Bureau of Reclamation (01/29/2010);
             1 Recommendation

             WR-FL-BOR-0007-2010
             Follow-up – Bureau of Reclamation’s Management of Exclusive Use Recreation
             Areas (02/24/2011); 2 Recommendations

             WR-EV-BOR-0007-2011
             Final Evaluation Report – Bureau of Reclamation’s Safety of Dams:
             Emergency Preparedness (02/27/2012); 1 Recommendation

       Indian Affairs

             WR-EV-BIA-0002-2010
             Evaluation – Coordination of Efforts to Address Indian Land Fractionation
             (01/04/2011); 6 Recommendations

             WR-EV-BIA-0001-2011
             Advisory – Indian Land Consolidation: Mass Appraisals of Indian Lands
             (06/13/2011); 1 Recommendation

             ER-IN-BIA-0016-2009
             Final Audit Report – Bureau of Indian Affairs: Wildland Fire Suppression
             (07/13/2011); 3 Recommendations

             ER-IS-BIA-0010-2011
             Inspection – U.S. Department of the Interior Program Startup Inspection: Bureau
             of Indian Affairs Youth Initiative Program (11/10/2011); 2 Recommendations

             WR-EV-BIA-0009-2012
             Advisory – Indian Land Consolidation: Probate and Estate Planning Activities
             (08/16/2012); 1 Recommendation

             CR-EV-BIA-0001-2011
             Final Evaluation Report – Oil and Gas Leasing in Indian Country: An Opportunity
             for Economic Development (09/24/2012); 6 Recommendations
35
                                                                            Appendix 5
Insular Area Reports

     V-IN-VIS-0004-2005
     Controls Over Video Lottery Terminal Operations, Government of the Virgin
     Islands (06/08/2007); 2 Recommendations

     P-EV-FSM-0001-2007
     Kosrae State, Federated States of Micronesia: Property Accountability Process
     Needs To Be Improved (10/17/2007); 5 Recommendations

     V-IN-VIS-0011-2006
     Collection of Outstanding Taxes and Fees, Government of the Virgin Islands
     (01/10/2008); 3 Recommendations

     V-IN-VIS-0001-2007
     Administrative Functions, Roy Lester Schneider Regional Medical Center,
     Government of the Virgin Islands (07/28/2008); 4 Recommendations

     P-EV-GUA-0002-2008
     Tax Collection Activities, Government of Guam, Revitalized Tax Collection and
     Enforcement Effort Needed (11/26/2008); 2 Recommendations

     V-IN-VIS-0003-2007
     U.S. Virgin Islands Workers’ Compensation Benefits at Risk (11/28/2008);
     3 Recommendations

     VI-IS-VIS-0002-2008
     Final Evaluation Report – Virgin Islands Police Department Evidence Integrity at
     Risk (03/31/2009); 10 Recommendations

     VI-IN-VIS-0003-2009
     Final Audit Report – Capital Improvement Projects Administrative Functions -
     Procurement Deficiencies Plague the Virgin Islands Port Authority (09/08/2010);
     1 Recommendation

     VI-EV-VIS-0002-2010
     Evaluation Report – Administrative Functions of the Virgin Islands Government
     Employees Retirement System (09/27/2011); 6 Recommendations



                                                                                     36
Appendix 5
             VI-IN-VIS-0001-2010
             Audit Report – Administrative Functions - Legislature of the Virgin Islands
             (11/28/2011); 10 Recommendations

             HI-EV-GUA-0001-2011
             Final Report – Evaluation of Guam Power Authority (08/09/2012);
             4 Recommendations

             VI-EV-VIS-0002-2011
             Final Evaluation Report – Juan F. Luis Hospital and Medical Center (09/19/2012);
             10 Recommendations

       Multi-Office Assignments

             2002-I-0045
             Recreational Fee Demonstration Program - National Park Service and Bureau of
             Land Management (08/19/2002); 1 Recommendation

             C-IN-MOA-0049-2004
             Department of the Interior Concessions Management (06/13/2005);
             1 Recommendation

             C-IN-MOA-0007-2005
             U.S. Department of the Interior Radio Communications Program (01/30/2007);
             5 Recommendations

             C-IN-MOA-0004-2007
             Abandoned Mine Lands in the Department of the Interior (07/24/2008);
             2 Recommendations

             X-IN-MOA-0011-2008
             Independent Auditors’ Report on the Department of the Interior Financial
             Statements for Fiscal Years 2008 and 2007 (11/15/2008); 3 Recommendations

             WR-EV-MOI-0008-2008
             Employee Relocation, U.S. Department of the Interior (09/21/2009);
             3 Recommendations




37
                                                                            Appendix 5
     C-IN-MOA-0010-2008
     Audit Report – Department of the Interior Museum Collections: Accountability
     and Preservation (12/16/2009); 9 Recommendations

     CR-IS-MOA-0004-2009
     Inspection Report – BLM and MMS Beneficial Use Deductions (03/08/2010);
     4 Recommendations

     C-IN-MOA-0001-2009
     Final Audit Report – Department of the Interior’s Management of Land
     Boundaries (07/16/2010); 3 Recommendations

     ER-EV-MOA-0012-2009
     Wildland Urban Interface: Community Assistance (07/30/2010);
     3 Recommendations

     C-EV-MOA-0010-2010
     Final Evaluation Report – Portable Nuclear Gauges (09/28/2011);
     1 Recommendation

     WR-EV-MOA-0004-2010
     Final Evaluation Report – U.S. Department of the Interior’s Video
     Teleconferencing Usage (12/20/2011); 5 Recommendations

     ER-EV-MOA-0002-2011
     Final Evaluation Report – Bureau of Land Management and Bureau of Indian
     Affairs Bridge Safety Programs (04/12/2012); 1 Recommendation

     C-IN-MOA-0013-2010
     Final Audit Report – Management of Rights-of-Way in the U.S. Department of
     the Interior (09/27/2012); 16 Recommendations

National Park Service

     C-IN-NPS-0013-2004
     The National Park Service’s Recording of Facility Maintenance Expenditures
     (01/26/2005); 2 Recommendations




                                                                                    38
Appendix 5
             HI-EV-NPS-0001-2010
             Evaluation – National Park Service: Climate Friendly Parks Initiative
             (08/12/2011); 3 Recommendations

             ER-IS-NPS-0014-2011
             Inspection – National Park Service Visitor Donation Boxes (03/08/2012);
             3 Recommendations

       Office of Insular Affairs

             VI-IN-OIA-0005-2012
             Final Evaluation Report – Juan F. Luis Hospital and Medical Center
             (09/19/2012); 1 Recommendation

       Office of Natural Resources Revenue

             CR-MA-ONRR-0003-2012
             Management Advisory – Civil Penalty Sharing Provisions of 30 U.S.C. § 1736 for
             Federal Oil and Gas Leases (05/01/2012); 2 Recommendations

       Office of Surface Mining

             ER-IS-OSM-0011-2011
             Inspection – U.S. Department of the Interior Program Startup Inspection:
             Office of Surface Mining Appalachian Regional Reforestation Initiative
             (11/10/2011); 1 Recommendation

       Office of the Secretary

             WR-EV-OSS-0012-2009
             Evaluation Report on the Department of the Interior’s Appraisal Operations
             (12/23/2009); 1 Recommendation

       Office of the Secretary – NBC

             ER-IS-NBC-0003-2011
             Inspection – Acquisition Service Directorate - Sierra Vista Organization
             (07/14/2011); 2 Recommendations


39
                                                                          Appendix 5
U.S. Fish and Wildlife Service

     NM-EV-FWS-0001-2010
     Evaluation – The National Bison Range (03/30/2011); 1 Recommendation

     WR-EV-FWS-0003-2011
     Evaluation Report – U.S. Fish and Wildlife Service Conservation Easement
     Monitoring and Enforcement (01/09/2012); 3 Recommendations




                                                                Back to Top 40
Cross-References to the Inspector General Act
                                                                                       Page
Section 4(a)(2)            Review of Legislation and Regulations                       N/A*

Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies               2 – 20

Section 5(a)(2)            Recommendations for Corrective Action With Respect           2 – 20
                           to Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)            Significant Recommendations From Agency’s Previous          34 – 40
                           Reports on Which Corrective Action Has Not Been Completed

Section 5(a)(4)            Matters Referred to Prosecutive Authorities and                 22
                           Resulting Convictions

Section 5(a)(5)            Matters Reported to the Head of the Agency                    N/A

Section 5(a)(6)            Audit Reports Issued During the Reporting Period            24 – 28

Section 5(a)(7)            Summary of Significant Reports                               2 – 20

Section 5(a)(8)            Statistical Table: Questioned Costs                             29

Section 5(a)(9)            Statistical Table: Recommendations That Funds Be Put            30
                           to Better Use

Section 5(a)(10)           Summary of Audit Reports Issued Before the Commencement     31 – 33
                           of the Reporting Period for Which No Management Decision
                           Has Been Made

Section 5(a)(11)           Significant Revised Management Decisions Made                 N/A
                           During the Reporting Period

Section 5(a)(12)           Significant Management Decisions With Which                   N/A
                           the Inspector General is in Disagreement

Section 5(a)(13)           Information Described Under Section 804(b) of the Federal     N/A
                           Financial Management Improvement Act of 1996

*N/A: Not applicable to this reporting period.
U.S. Department of the Interior
  Office of Inspector General
      1849 C Street, NW.
      Mail Stop 4428, MIB
     Washington, DC 20240

  www.doi.gov/oig/index.cfm

     Phone: 202-208-4618
      Fax: 202-208-6062
